No. _______

In the
Supreme Court of the United States

ORLANDO HALL AND BRANDON BERNARD,
Applicants,
v.
WILLIAM P. BARR, ATTORNEY GENERAL, et al.
Respondents.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the Supreme Court Bar and
that, on this 18th day of November, 2020, copies of the Emergency Application For
Stays of Execution were sent to:
Jeffrey Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
Respectfully submitted,

Arn Jacobsen

